Nos. 19-1058 and -1061

Supreme Court of the United States
Hospira, Inc.,
Petitioner,
v.
Eli Lilly and Company,
Respondent.

Dr. Reddy’s Laboratories, Ltd., et al.,
Petitioners,
v.
Eli Lilly and Company,
Respondent.

On Petitions for Writs of Certiorari
to the United States Court of Appeals
for the Federal Circuit

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the Brief of the
R Street Institute as Amicus Curiae in Support of the Petitions contains
266 words, exempting parts of the document that are exempted by Supreme Court Rule
33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Respectfully submitted,
Dated: March 26, 2020
Charles Duan
R Street Institute
1212 New York Ave NW Ste 900
Washington DC 20005
(202) 525-5717
cduan@rstreet.org

